                                                NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

 Case Number: A13020019                                                         Page 1 ofl


         We received a complaint that one researcher (the subjectl) had plagiarized from
         another researcher (the researcher 2 ) into a paper (P2) that cited NSF support.3 The
         complaint noted the researcher had written a paper (P3) 4 that accused the subject of
         plagiarism. The complaint also alleged NSF program officers acted inappropriately
         in allowing the subject to serve on a review panel after they were aware of the
         plagiarism allegation.
         We learned the researcher had published a paper (Pl) claiming proof of a result.
         The subject wrote a paper (P2) in which he proved the same result and said he did
         not follow the researcher's proof in Pl. The researcher responded (P3) by stating
         the subject had (in P2) merely reproved the result of Pl, using the same key ideas
         as Pl, so P2 was essentially duplicative of Pl. The subject and the researcher
         exchanged emails and each wrote additional papers discussing the adequacy of the
         researcher's proof.   Ultimately, the researcher acknowledged the subject for
         providing him an opportunity to clarifY his original proof.
         While one could interpret the researcher's statements iri P3 as an allegation of
         plagiarism, the continuing dialog between them suggests instead that they had a
         scientific disagreement about the validity and applicability of a proof. It appears
         they have come to an agreement about the researcher's proof, and the scientific
         community will ultimately judge whether the subject's proof offers any additional
         insight. We conclude there is insufficient substance to the allegation of plagiarism.
         Regarding the subject's panel service, the program officers acted appropriately. The
         subject is innocent until proven guilty, so may serve on panels. Indeed, it would
         have been inappropriate for program managers to exclude the subject purely on the
         basis of an allegation. We conclude there is no substance to the allegation that the
         program officers acted inappropriately.
         This case is closed with no further action taken.




              2

              3The subject's manuscript was uploaded to the
         acknowledged the work was partially supported by
             4 The researcher's manuscript was uploaded to the arXiv

         This is P3.



NSF OIG Form 2 (11/02)
